In The SUPREME COURT Of The UNITED STATES
No. 20-1589

KRIS KASZUBA dba Hollywood Group
Petitioner,
V.
Andrew Hirshfeld, Acting Director of USPTO
Intervenor

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITIONER's
REPLY, NEW EVIDENCE & NEW QUESTIONS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(6), being
prepared in Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 1,377 words, excluding the parts that are
exempted by Supreme Court Rule 33.1(d), as needed.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 30, 2021

/AB/ electronic signature '
Antonia Bebar
2683 Via de la Valle, # G246
San Diego, CA 92014
antoniabeb@gmail.com

